<html>
<title> - ROUND TWO: FEDERAL AGENCIES AND CONFERENCE SPENDING</title>
<body><pre>[Senate Hearing 109-926]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-926

          ROUND TWO: FEDERAL AGENCIES AND CONFERENCE SPENDING

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                     INFORMATION, AND INTERNATIONAL
                         SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2006

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs












                      U.S. GOVERNMENT PRINTING OFFICE
30-598 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
             Michael L. Alexander, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk


FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, AND INTERNATIONAL 
                         SECURITY SUBCOMMITTEE

                     TOM COBURN, Oklahoma, Chairman
TED STEVENS, Alaska                  THOMAS CARPER, Delaware
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
LINCOLN D. CHAFEE, Rhode Island      DANIEL K. AKAKA, Hawaii
ROBERT F. BENNETT, Utah              MARK DAYTON, Minnesota
PETE V. DOMENICI, New Mexico         FRANK LAUTENBERG, New Jersey
JOHN W. WARNER, Virginia             MARK PRYOR, Arkansas

                      Katy French, Staff Director
                 Sheila Murphy, Minority Staff Director
            John Kilvington, Minority Deputy Staff Director
                       Liz Scranton, Chief Clerk


























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Coburn...............................................     1
    Senator Carper...............................................    15

                               WITNESSES
                      Thursday, September 14, 2006

Lisa Fiely, Chief Financial Officer, U.S. Agency for 
  International Development......................................     6
Nina Rose Hatfield, Deputy Assistant Secretary, Policy, 
  Management, and Budget, U.S. Department of Interior............     8
Lee J. Lofthus, Acting Assistant Attorney General for 
  Administration, U.S. Department of Justice.....................    10
Michell Clark, Assistant Secretary for Management, U.S. 
  Department of Education........................................    11
Edward C. Hugler, Deputy Assistant Secretary for Operations, 
  Office of the Assistant Secretary for Administration and 
  Management, U.S. Department of Labor...........................    14
Clarence C. Crawford, Chief Financial Officer, Office of 
  Personnel Management...........................................    21
Eugene Schied, Deputy Chief Financial Officer, U.S. Department of 
  Homeland Security..............................................    22
Jeffery K. Nulf, Deputy Assistant Secretary for Administration, 
  U.S. Department of Commerce....................................    24
Richard Holcomb, Deputy Chief Financial Officer, and Acting 
  Deputy Assistant Secretary for Headquarters Operations, U.S. 
  Department of the Treasury.....................................    26
Charles R. Christopherson, Jr., Chief Financial Officer, U.S. 
  Department of Agriculture......................................    27

                     Alphabetical List of Witnesses

Christopherson, Charles R. Jr.:
    Testimony....................................................    27
    Prepared statement with attachments..........................   435
Clark, Michell:
    Testimony....................................................    11
    Prepared statement with attachments..........................   250
Crawford, Clarence C.:
    Testimony....................................................    22
    Prepared statement with attachments..........................   312
Fiely, Lisa:
    Testimony....................................................     6
    Prepared statement with attachments..........................    36
Hatfield, Nina Rose:
    Testimony....................................................     8
    Prepared statement with attachments..........................   148
Holcomb, Richard:
    Testimony....................................................    26
    Prepared statement with attachments..........................   419
Hugler, Edward C.:
    Testimony....................................................    14
    Prepared statement with attachments..........................   258
Lofthus, Lee J.:
    Testimony....................................................    10
    Prepared statement with attachments..........................   170
Nulf, Jeffery K.:
    Testimony....................................................    24
    Prepared statement with attachments..........................   378
Schied, Eugene:
    Testimony....................................................    22
    Prepared statement with attachments..........................   334

                                APPENDIX

Chart entitled ``What Federal Employees Spend While Attending A 
  Dopmestic Conference''.........................................    33
Chart entitled ``What Federal Employees Spend While Attending A 
  Foreign Conference''...........................................    34
Chart entitled ``Federal Agencies and Conference Spending 2000-
  2006''.........................................................    35
























 
          ROUND TWO: FEDERAL AGENCIES AND CONFERENCE SPENDING

                              ----------                              


                      THURSDAY, SEPTEMBER 14, 2006

                                     U.S. Senate,  
            Subcommittee on Federal Financial Management,  
        Government Information, and International Security,
                            of the Committee on Homeland Security  
                                          and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Tom Coburn, 
Chairman of the Subcommittee, presiding.
    Present: Senators Coburn and Carper.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. The Subcommittee on Federal Financial 
Management will come to order.
    I want to welcome our guests. I want to apologize for being 
late. That is one of my sticklers, and we are a couple of 
minutes late. Senator Carper will be here for a short period of 
time. He has some other things that he has to take care of, and 
I am going to just start with out him.
    I want to explain to you why we are having this hearing, 
and it is not really about conferences and travel. It is really 
about, Can the American people trust us to be prudent in a time 
when we are spending $400 billion of their kids' money every 
year that we do not have?
    And I am reminded of President Roosevelt, prior to World 
War II, when he cut his own programs that he had instituted by 
23 percent to make sure we had the resources to do what was in 
the best long-term interest of our country. I am reminded of 
Harry Truman, who did the same thing for the Korean War. We did 
not fund the Korean War on the backs of our grandchildren.
    In an area where we have discretion, where leadership can 
make a difference, where we can make a difference by leading by 
example and have impact in every other area of the Federal 
Government, we ought to do so. And quite frankly, the 
leadership that I have seen is not doing that--and I am not 
just talking about this area. This is an area, because I think 
there is some waste, that if we concentrate on that and use as 
an example, we might, in fact, find other areas where we might 
not have to borrow money from our grandkids.
    So you see a couple of charts over there.\1\ It is not 
meant to embarrass anybody, and this is not about beating up on 
anybody today, but really having some examples. I came back 
from Iraq this weekend, and one of the problems that concerns 
me--I had two hotel nights, got to stay in really nice hotels. 
Was fed well, and the person that traveled with us, the 
military liaison, paid all our expenses, and everything else. 
There is $670 in these two envelopes of per diem, which is at 
the same rate that Federal employees get per diem, that is 
mine. Well, that is ludicrous. The only other trip I have taken 
as a U.S. Senator was China, and I turned back in $573. Well, 
nobody is required to turn that money in.
---------------------------------------------------------------------------
    \1\ Charts referred to appears in the Appendix on page 33-35 
respectively.
---------------------------------------------------------------------------
    So that says, first of all, there is a problem with per 
diems in excess. Second, it is not reported as taxable income 
when, in fact, it really should be. And, third, the idea that 
we have conferences and we pick the conference not on the basis 
of need, very often, but we pick the conference based on 
whether or not we can take some paid time off associated with 
it. And so the decision is made on where the conference is 
rather than on the necessity of having the conference.
    And I am not saying that is necessarily wrong. I understand 
the extreme need for you to bring people together and I know 
you cannot always do it on digital videoconferencing. I have 
done that between Geneva and here and Belgium and here. I have 
done a lot of that, and I know that sometimes the quality of 
that is not great. But the thing that is going before us is we 
are at war. And if the Members of Congress are not going to 
lead, you all can. You can set an example.
    We had two Departments, EPA and HHS, after our first 
hearing that set into place some very good requirements. And 
just a couple of things that I would put forward to you all as 
leaders is I think that some important questions ought to be 
asked--and you can get this from my staff--about conference and 
travel, and they are the following: Does the conference help 
further the Department's mission? Really, does it change the 
mission? Does it enable the mission? Could the information be 
shared through another means, such as videoconferencing or 
Internet? Is the location appropriate and is the location 
justified given the fact that we are in a time of war?
    What would the average American think about their tax 
dollars being spent on this conference at this location? What 
would they think?
    Now, we are going to put out all the ones that we think are 
somewhat questionable onto the Internet, and I am sure that 
most Americans are not going to agree that they are 
appropriate. They may be justified, but they are not going to 
agree. So we ought to create an expectation that we are frugal 
with their money for the future's sake.
    Is the number of employees attending justified? Does 
participation in the conference validate or endorse our foreign 
policy or our values or the Administration's policy? Or does it 
undermine it? Does the conference give a platform to ideas and 
panelists who undermine our American interests rather than 
support our interests? Is it a wise use of tax dollars when we 
have almost a $9 trillion debt, growing at a half a trillion 
dollars a year? And is it must-do for efficiency and economy 
for the Department?
    I know each of you are professionals. I know you are good 
managers. What I want to do is have you refocus an effort. With 
$1.6 billion on conferences--I have examples. I will not go 
into them. I will put my written statement into the record. But 
I think there are some highly questionable trips out there, and 
that means probably 85 percent are fine. And what I am talking 
about is the 15 percent that is not.
    When DHS is going to increase their conference spending 148 
percent this year, I think, their conference level, and 
others--the Department of Labor is the lowest in terms of 
increasing expenditures, but on average, we have seen a 14-
percent increase on average per year in the last 6 years. That 
is with the data that we have today. And that is in spite of 
advancing technology.
    Can't we do better? Can't we manage it better? Can't we 
make better decisions? And can't each of us in the areas of 
influence on this one area, which sets the tone, can we not 
also change this process--and I know you do not set the 
process, and I assure you, I am going to change this process. 
But can we not make it accountable?
    Per diem money that is not spent ought to be turned in to 
the Federal Government when we are spending $430 billion under 
real accounting rules more than we have every year. It should 
not be to enrich people who take conference trips.
    With that, I will end my statement.
    [The prepared statement of Senator Coburn follows:]
                  PREPARED STATEMENT OF SENATOR COBURN
    Welcome to Round 2 of Federal Agencies and Conference Spending. 
This past February we held a hearing after an oversight investigation 
revealed that the Federal Government had spent over $1.4 billion on 
conference-related travel and meetings in the last five years. I called 
another hearing on this topic because this figure is set to increase by 
at least $300 million after 2006 totals are tallied. The ten witnesses 
appearing before the Subcommittee on Federal Financial Management have 
been called because they either have not provided information I 
requested about their fiscal year 2006 conference activity or their 
responses were late.
    I still have not received 2006 information from USAID or the 
Department of Agriculture. The Departments of Justice and Treasury 
submitted their data yesterday afternoon. Several of you informed my 
staff that people were on vacation in August so that is why you were 
unable to complete the request on time. However, when the information 
was due in early July, I don't see how August vacations are relevant. I 
hope that these agencies can assure us today that they'll submit final 
reports to this Subcommittee at the end of the month when the fiscal 
year concludes, and for those who have already responded, please update 
your information.
    I want to thank the Departments of Labor, Commerce and Treasury for 
submitting their testimony on time. The other seven witnesses were 
late. I set these deadlines so I can review your testimony ahead of 
time and we can have a productive session at the hearing.

                              The Findings

    <bullet>  In a review of your conference data, a few things that 
caught my eye between location, attendance levels, topic and cost:
    <bullet>  USAID reported sending 3 people to Orlando for a 
conference they described as: ``workshops and networking for feds in 
D.C.''
    <bullet>  The Department of Labor sent 5 people to Vietnam for a 
conference on strategies for workforce development. They also sent 
someone to Hong Kong for an OSHA conference.
    <bullet>  The Department of Interior spent $722,000 to send 125 
employees to a 4-day conference just 70 miles outside of Washington, 
DC. That is about $5,800 per attendee. They could have sent each 
employee and spouse on a 7-day luxury cruise for the same cost.
    <bullet>  The Department of Agriculture sent 550 people to a Rural 
Development Conference in Oregon.
    <bullet>  DHS sent 842 FEMA employees to the National Disaster 
Medical Service Conference in Reno, NV this past April at a cost of 
$1.5 million. I looked at the program line up for this conference and 
attendees had free time after 4:30 p.m. every day. The first two days 
were all optional sessions. The conference website boasts the many 
pools, casinos, restaurants, go-kart tracks and shopping available for 
hotel guests.
    <bullet>  The Department of Treasury sent 11 employees to a series 
of wine seminars throughout California.
    My point in bringing up these particular conferences is 
teleconferencing and the use of email to exchange information virtually 
reduce the need for employees to travel to most of these conferences. 
Instead of sending someone to the Rotary Club meeting in St. Croix, 
Virgin Islands, the Department of Labor could have hopped on a 
conference call. Or instead of sending someone to Fiji for a maritime 
seminar, the Department of Homeland Security could have had the 
information presented at the meeting emailed back to them in America.
    One thought I had is that it might be cheaper to hold conferences 
here in Washington. I am not saying that all conferences are a waste of 
time and money. Some conferences are very necessary and that's 
precisely why I am interested in this topic, to make sure that we are 
using resources for things that are ``must-do's'' for the efficiency 
and economy of the Department.

              Astonishing increase in spending since 2000

    I continue to be concerned about the amount of time, money and 
human capital the government spends sending people to these meetings 
and sponsoring the conferences themselves. Between 2005 and 2006 the 
agencies represented here today increased their conference spending 
almost 20 percent. After the Subcommittee brought this issue to your 
attention last year most of you continued to increase this type of 
spending. At the very least this type of spending should return to 2001 
levels and remain flat as that was the year American taxpayers began 
funding an expensive war.
    Since 2000, the government has spent almost $1.5 billion, a number 
that will be surpassed at the conclusion of this fiscal year. Given the 
number of holes in the data submitted to this Subcommittee, I am sure 
this number is much higher. But what is most astounding to me is the 
rate at which this spending has increased--some 70 percent in 5 years, 
or 14 percent a year.
    I note that between the witnesses today, some of you are below this 
average, and others exceed it. This was calculated using the latest 
available data.

    <bullet>  OPM: spending has declined.
    <bullet>  Interior: Couldn't submit complete data.
    <bullet>  Labor: 21% spending increase
    <bullet>  Agriculture: 53% spending increase
    <bullet>  Commerce: 57% spending increase
    <bullet>  Treasury: 96% spending increase
    <bullet>  Justice: 141% spending increase
    <bullet>  USAID: 147% spending increase
    <bullet>  DHS: 148%--which is pretty impressive for an agency that 
is 3 years old.
    <bullet>  Education: 261% spending increase.

    Above and beyond these enormous increases, I have to wonder about 
the loss in productivity within agencies when employees are out of the 
office and sitting at a conference out of town. On top of the 
conference and travel costs add in each day's salary when that employee 
wasn't doing his regular job. The loss of man hours is tremendous if 
you consider the fact that federal employees attend thousands of 
conferences a year.
    I also continue to be amazed that these large spending increases on 
conference travel--an activity that many see as a luxury rather than a 
necessity--have occurred during a time of war. Only one agency here 
today has reduced this type of spending. It used to be the case that 
government set priorities and cut back non-defense spending during war 
time. President Roosevelt cut non-defense spending by over 20 percent 
and several years later, President Truman cut non-military spending by 
28 percent. Today, things are different.

     Technology should reduce need for travel, especially by large 
                              delegations

    Technology is dramatically reducing the need for travel. In the 
modern telecommunications era, it is unnecessary to spend time and 
resources to finance so many conferences. Teleconferences and video 
conferencing, for example, can save money while allowing the same type 
of information sharing at a mere fraction of the cost. Yet, this is not 
the trend we see. Three Departments actually doubled the number of 
conferences they sent people to last year: Agriculture sent people to 
almost 800 last year; Commerce staff attended 900 conferences this 
year; and Education sent people to 600 conferences. DHS officials 
attended 660 last year and they will attend a whopping 2,217 this year. 
Last year USAID participated in 1400 conferences. For an agency of 
2,500 employees, I was shocked by this number. It will be interesting 
to see 2006 data when they submit it.

                         First hearing round up

    I am pleased to report that as a result of our first hearing, both 
HHS and EPA have issued internal conference directives to help 
supervisors manage conference requests and spending. EPA asks managers 
to consider email and videoconferencing options before attending a 
conference. They also ask staff to consider lower cost locations and to 
hold conferences on an 18-month cycle instead of annually. These are 
positive steps being taken by individual agencies that I hope to see 
more of in the very near future. But we won't know if these process 
changes are sufficient until we see conference spending at these 
agencies reduced next year. We'll all be back to find out.
    In February, at the first hearing in this series, a former 
government official informed the Subcommittee that many federal 
employees lobby to attend conferences in beach, resort, casino or 
European tourist destinations including the Virgin Islands, Paris, Las 
Vegas, Maui, Geneva, and Australia. Many who attend the conferences 
then use annual leave to stick around for a few extra days or weeks, 
essentially charging taxpayers the cost of a plane ticket for their 
personal vacations. In other words, the destination drives the decision 
to attend rather than the agency mission. This witness also reported at 
the hearing that there are few internal controls on conference 
attendance or spending and questioned the cost effectiveness of the 
array of conferences.
    I am still awaiting responses on specific conferences, but in terms 
of taxpayer funded vacations we found that:
    <bullet>  The Department of Commerce sent 31 people to Greece for 
the International Sea Turtle Symposium at a cost of $84,000. Between 
the 31 attendees, they took 81 days of annual leave.

                          Lack of transparency


    I hope this hearing prompts you all to increase transparency within 
your agencies. With increased transparency I believe many of these 
problems could be avoided. There should be a formal vetting and 
justification process for conference requests, especially when 
technology allows for teleconferencing and use of the Internet to 
exchange information.
    As we go forward, I would encourage agencies to be sure that every 
conference attended by Federal employees passes the following tests:

        (1)  Does the conference help further the Department's mission?
        (2)  Could the information be shared through another means such 
        as a teleconference or the Internet?
        (3)  Is the location appropriate and justified? What would the 
        average American think about their tax dollars being spent on 
        this conference in this location?
        (4)  Is the number of employees attending justified?
        (5)  Does participation in the conference validate or endorse 
        ideas or values harmful to American interests and culture?
        (6)  Does the conference give a platform to ideas and panelists 
        who undermine American interests?
        (7)  Is this a wise use of tax dollars when we have an $8 
        trillion+ national debt?
        (8)  Is it a ``must-do'' for efficiency and economy for the 
        Department?

    Every conference should be readily defensible, on its face, to 
regular Americans in terms of topic, location and participants. The 
conferences must be related to the Department's mission. If annual 
leave is requested in conjunction with a conference, managers must 
scrutinize conference topic and consider value to agency's work and 
focus. I look forward to our discussion today.

    Senator Coburn. We will start with our first panel of 
witnesses by hearing from Lisa Fiely, Chief Financial Officer, 
U.S. Agency for International Development; Nina Rose Hatfield, 
Deputy Assistant Secretary, Policy, Management, and Budget, 
U.S. Department of Interior; Lee Lofthus, Acting Assistant 
Attorney General for Administration, Department of Justice; the 
Hon. Michell Clark, Assistant Secretary for Management, 
Department of Education; and Ed Hugler, Deputy Assistant 
Secretary for Operations, Department of Labor.
    Ms. Fiely, you are recognized.

   TESTIMONY OF LISA FIELY,\1\ CHIEF FINANCIAL OFFICER, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Fiely. Chairman Coburn and distinguished members of the 
Subcommittee, I want to thank you for the opportunity to appear 
before you today to discuss USAID's use of conferences as a 
venue for learning, information exchange, and program 
implementation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Fiely appears in the Appendix on 
page 36.
---------------------------------------------------------------------------
    I would like to start by giving you a brief description of 
what the U.S. Agency for International Development is and what 
we do. We are one of the premier bilateral foreign aid agencies 
in the world and the principal U.S. agency for delivering 
foreign assistance, with missions in over 80 countries. We are 
the chief foreign aid arm of the U.S. Government, and we have 
been in the development business for over half a century.
    USAID's current budget stands at more than $9 billion with 
those resources going through grants and contracts with 
hundreds of U.S. local and international nonprofit 
organizations and companies. The total official development 
assistance provided by the United States in 2005 came to $27.5 
billion, which was a near tripling of the ODA since 2001.
    USAID invests these resources in a wide variety of projects 
including malaria, HIV/AIDS, small business development, 
agricultural development, conflict resolution, rural 
electrification, microfinance, and many other activities. We 
also work with countries seeking to improve their economic 
governance structures to attract local and international 
private investment by reforming their fiscal, tax, customs, 
banking, energy, agriculture, and environmental policies.
    It is in our interest to work with host country governments 
that strive for democratic legitimacy and rule of law, and 
respect human rights. We are not the lenders like the World 
Bank or the IMF; rather, we put our resources to work on a wide 
variety of grass-roots projects in many different settings. As 
you can discern, as an Agency, we are all over the map 
literally as it applies to our locations, but figuratively as 
well, as it applies to our extremely varied nature of our 
programs as I have described them. I would dare to say that 
under our new framework, which our new Administrator, 
Ambassador Tobias, is currently putting in place, the Agency's 
programs will be more focused and defined; geographically, 
however, we will still be all over the map.
    Because of what we do and where we do it, it is very 
difficult to accomplish these initiatives using the normal 
business and operational paradigms. We have to deal with 
geographical physical distances, language barriers, 
communications barriers. Oftentimes the points we are trying to 
get across can so easily be lost in translation, and absent the 
physical presence and ability to see the disconnect or lack of 
understanding, an entire issue at hand can be lost. I say this 
as a backdrop to my discussion about the Agency's use of 
conferences.
    Oftentimes a conference or meeting is actually a venue for 
USAID to conduct program business. The interaction of key 
players in a worldwide environment is how we sell our product, 
and our product may very well be an understanding of the need 
for a particular intervention. Sometimes all that is standing 
between a program and a project working or not working is 
letting the folks know about the latest thinking in how it 
might be used to help their country's programs. Another example 
is in the Europe and Eurasia region where USAID sponsors 
conferences and workshops that seek to transfer knowledge from 
our ``graduate'' countries such as Poland to countries like 
Romania which are still in the process of transition. All of 
the conferences attended are not directly working conferences, 
but many of them are, and many others are used as training.
    We received your initial request for data back in February 
2006 and did not send an initial response until June 2006. This 
was totally unacceptable, and we recognize that. We should have 
been able to respond much quicker, but because we did not 
separately track conference information, we were forced to go 
out with a data call to our 80 missions worldwide to request 
the information. I can happily say that we have instituted in 
2007 a new expanded object coding system which will give us the 
ability to arrive at these numbers rapidly and systematically. 
Literally with the press of a button we can arrive at the 
dollar figures. The amounts which we reported to you earlier 
range from $3.5 to $8.9 million. Based on our 2007 requests, we 
are looking at an upper-limit figure of approximately $7.2 
million. This is a substantial reduction.
    I apologize that I do not have the data for you today on 
2006 numbers requested in your August 28 letter, but we just 
received this letter in my office on September 11, and we 
currently have a data call out to all of our missions. So we 
are in the process of gathering the 2006 and the 2007 
projections for you.
    If you were to ask me if all of the conference travel was, 
in fact, necessary, I cannot personally tell you that it was. 
But what I would point out is that the nature of what we do and 
where we do it makes conference meetings travel extremely 
expensive. I would further point out that at USAID money spent 
on attendance at or hosting of conferences and seminars is in 
direct competition with our program execution dollars. I would 
venture to say that as a head of office, our managers would not 
approve a frivolous conference at the expense of putting money 
on the ground where positive results can be measured to the 
Agency's favor.
    In the statement previously provided to the Subcommittee, I 
gave several examples of results we have derived from our 
participation in conferences. In the interest of time, I would 
like to just give one of those as an example, and that would be 
the United States as the main cosponsors of the International 
Partnership on Avian Flu. In the most recent conference held in 
Vienna in July 2006, the participating nations reviewed the 
international contributions to combat avian and pandemic 
influenza and agreed to focus on the critical countries such as 
Indonesia where donor assistance is desperately needed. The 
result was that an international coalition of donors mobilized 
approximately $40 million in assistance to Indonesia. This 
shows where we use conferences as a backdrop, as a venue to 
promote and successfully further our programs.
    In conclusion, at USAID we employ strict controls over both 
conference sponsorship as well as conference attendance. Our 
Agency policy requires that approving officials ensure that the 
``minimum number of attendees needed to fulfill agency 
requirements are in attendance at any individual conference.'' 
Further, in those cases where our Agency is the sponsoring 
agency, we require our offices to go out and get three 
estimates of the cost for various locations and go with the 
most economical estimate. We believe that our separate policy 
governing conferences coupled with the strict required 
approvals for hosting conferences lends strong stewardship in 
this area.
    In my 30-year career at the Federal Government, I have 
worked at several agencies--in fact, many of the agencies that 
you are paneling today. I have also been responsible for 
drafting conference policies at many of these agencies. I have 
seen conferences used as a work venue, a training venue, and as 
a reward venue in some agencies. There is no doubt that there 
is potential for abuse, which is why we have controls in place 
and why we at USAID welcome the constructive oversight on the 
part of this Subcommittee.
    Senator Coburn. Thank you very much.
    I want to welcome my Co-Chairman, Senator Carper, who will 
have to leave at about 3:30. So we are going to try to go 
through these panelists, and then he will have an opening 
statement as he asks questions.
    Ms. Hatfield.

TESTIMONY OF NINA ROSE HATFIELD,\1\ DEPUTY ASSISTANT SECRETARY, 
  POLICY, MANAGEMENT, AND BUDGET, U.S. DEPARTMENT OF INTERIOR

    Ms. Hatfield. Mr. Chairman, I am Nina Rose Hatfield, the 
Deputy Assistant Secretary for Business Management and Wildland 
Fire at the Department of the Interior, and I am pleased to be 
here today to discuss conference spending by Interior.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hatfield appears in the Appendix 
on page 148.
---------------------------------------------------------------------------
    The Department of the Interior is the Nation's principal 
conservation agency. We are a large, decentralized agency with 
over 70,000 employees and 180,000 volunteers located at 
approximately 2,400 operating locations across the United 
States. The Department manages one in every five acres of the 
United States and maintains some 40,000 facilities.
    As this Nation's premier land manager, our very diverse 
mission inevitably places us amid conflict as different people 
have diverse aspirations for those 500 million acres of public 
lands that we manage. As guardian of thousands of buildings, 
roads, trails, research facilities, and scientific systems, our 
mission also triggers many basic management challenges.
    In conducting our jobs, we work closely with States, 
tribes, and local governments, particularly in seeking public 
input relative to our mission for the management of lands and 
resources. Much of our work involves meeting and collaborating 
with others. In the case of the U.S. Geological Survey, our 
science agency, there is a compelling need to work closely with 
academia. In many of our jobs, attending training and 
conferences is an important tool for employee development, 
learning, and sharing information.
    I also believe that the conferences in certain cases 
represent an indispensable tool for us in terms of promoting 
sound policy development and practice. Good policy for land all 
across the United States cannot always be developed in 
Washington, DC, and we believe that there are times when 
interaction with these impacted communities can help our 
decisionmakers identify options and craft more collaborative 
and effective solutions.
    In fiscal year 2000, Interior obligated about $209 million 
on total travel and conference expenses, or about 1.6 percent 
of our total obligations. In fiscal year 2005, we obligated 
about $210 million, or just under 1.0 percent of our total 
obligations. In 2000 dollars, this equates to about $188 
million, or about a 10-percent decrease. The fiscal year 2000 
total conference registration fees, they totaled $25 million. 
And in fiscal year 2005, that figure for conference 
registration fees declined to $23.3 million.
    We are committed to ensuring that our travel dollars are 
maximized by limiting attendance at meetings and conferences, 
using teleconferences and other alternatives to travel, and 
taking advantage of cost efficiencies in travel.
    While we believe that conference spending can help further 
the mission of the Department of the Interior, we also 
recognize our joint concern that conference attendance and 
spending should be appropriately controlled. And the Department 
of the Interior has made significant investments in a 
technological infrastructure that allows us to do 
videoconferencing and teleconferencing across the country. We 
will continue to use these electronic conferencing whenever 
possible to reduce the need for in-person attendance at 
training and professional meetings.
    We believe that in tough budget times, conference spending 
will continue to be reviewed carefully to ensure that it is 
contributing to mission-essential work, and we take every 
effort to make sure that we promote a very businesslike 
approach to conference planning and reduction of our agency 
costs.
    Our departmental policy demands that senior management 
monitor conferences closely. The Department of the Interior has 
a longstanding policy requiring that conferences involving 30 
or more employees be approved by the Program Assistant 
Secretary. At least one of our bureaus has a policy that 
requires approval for smaller meetings and conferences. We 
believe that this review ensures that our conferences are 
mission related and that the location and timing of the 
conference are cost beneficial.
    Now, since our systems do not track the specific data that 
you have requested, our staff is gathering details of 
conference information through data calls to our bureaus, and 
we will look forward to providing you further information in 
the next few weeks as we can get that information from our 
bureaus.
    We also look forward to assuring you, Mr. Chairman, that at 
Interior we are very accountable for how we are spending our 
dollars and that we are maximizing the way we use our dollars 
to make sure that we achieve the mission that we have for the 
American public.
    With that, I will look forward to any questions.
    Senator Coburn. Thank you very much. Mr. Lofthus.

   TESTIMONY OF LEE J. LOFTHUS,\1\ ACTING ASSISTANT ATTORNEY 
     GENERAL FOR ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Lofthus. Good afternoon, Chairman Coburn and Ranking 
Member Carper. I thank you for the opportunity to appear before 
you today to discuss the issue of conference spending in 
Federal agencies. The Justice Department's leadership 
appreciates your interest in this topic and shares your concern 
for assuring the American people that their tax dollars are 
wisely spent.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lofthus appears in the Appendix 
on page 170.
---------------------------------------------------------------------------
    By way of background, our conference travel is performed to 
support the Department's mission on the war on terror and our 
traditional emphasis on fighting crime and protecting our 
communities. Our multiple missions requires keeping our 
nationwide and global base of over 105,000 employees educated 
and trained and in close coordination with our State and local 
law enforcement partners. We accomplish these efforts using a 
variety of approaches, including enhanced information 
technology, training and technical assistance, and through 
participation in conferences arranged by DOJ components and by 
other organizations involved in law enforcement and terrorism 
prevention.
    Our DOJ-sponsored conferences have ranged in purpose from 
countering gang violence to preventing identity theft to 
delivering critical training in identifying and countering 
improvised explosive devices. These efforts have borne results 
in the form of substantial reductions in the level of violent 
crime, drug use, property crime, and in improved emergency 
preparedness.
    Our annual expenditures on conferences have ranged from 
$33.8 million in 2001 to approximately $42 million anticipated 
in 2006, with our highest annual expenditure--$58 million--
occurring in 2004. Although these are significant expenditures, 
they are roughly two-tenths of 1 percent of our annual 
discretionary funding.
    It is also important to note a critical trend. Of the six 
larger DOJ organizations that typically spend over $1 million a 
year on conferences, only one organization--the FBI--has 
generally been increasing its conference spending. Conference 
spending in the non-FBI components of the Department of Justice 
has dropped by more than half since 2004. FBI's needs have 
increased legitimately as it pursues its transformation into 
its national security, counterterrorism, counterintelligence, 
and cyber crime roles.
    Let me briefly describe how we manage conference travel. 
Conference travel is generally approved by the individual 
components of the Department of Justice. Conference decisions 
are made, first and foremost, on whether the participation 
furthers the component's core mission. Second, we try to make 
use of alternative mechanisms such as videoteleconferencing 
where we can.
    For example, I am pleased to report that the Federal Bureau 
of Prisons estimates it has saved over $2 million this year by 
conducting over 8,000 videoteleconferencing sessions in lieu of 
traveling for in-person meetings or conferences.
    We also had a new policy implemented this year for all DOJ-
arranged conferences held at non-Federal facilities, and those 
type of conferences are subject to my review and approval.
    The 2005 DOJ Reauthorization Act states that unless 
authorized in writing by the Attorney General or his designee--
me--DOJ shall use for any predominantly internal training or 
conference only a facility that does not require payment to a 
private entity. The act also requires an annual report to 
Congress that details the events we hold in non-Federal 
facilities. Pursuant to this act, we issued a DOJ-wide policy 
earlier this year regarding use of non-Federal facilities. Our 
guiding principles are:
    First, minimize all conference costs and maximize the use 
of Federal facilities;
    Second, that the CFO approval must be obtained regardless 
of cost;
    And, third, that the locations or accommodations that may 
have the appearance of being lavish must first be approved by 
the head of the component making the request and then approved 
by me.
    With this new policy, we introduced a new online tracking 
capability that facilitates a prompt review by our finance 
staff of all non-Federal conference facility requests. As a 
result of implementing these internal controls, we assure 
conferences are necessary and that the site selections are cost 
effective. We maintain an online list now of approximately 60 
different government training locations for our component site 
selection consideration. This new policy was initially 
challenging to implement, but the process is now fully in 
place, and we estimate that these additional policies, this 
scrutiny has resulted this year in approximately $1.1 million 
in savings to the taxpayers.
    Conferences, used wisely, are extremely important to 
achieving our national security and law enforcement missions at 
the Justice Department.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to answer any questions. Thank you.
    Senator Coburn. Thank you very much.
    Mr. Clark, thank you very much for being here.

    TESTIMONY OF MICHELL CLARK,\1\ ASSISTANT SECRETARY FOR 
            MANAGEMENT, U.S. DEPARTMENT OF EDUCATION

    Mr. Clark. Thank you, Chairman Coburn and Senator Carper. 
Thank you for inviting the Department of Education to this 
hearing. My name is Michell Clark, Assistant Secretary for 
Management at the Department of Education. I appreciate this 
opportunity to testify on the Department's policies and 
practices as they relate to conference sponsorship, attendance, 
and related costs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Clark appears in the Appendix on 
page 250.
---------------------------------------------------------------------------
    As public stewards, we have a special obligation to ensure 
that taxpayer dollars are spent wisely, appropriately, and in a 
manner consistent with congressional intent. We are fulfilling 
those goals.
    It begins with a strong policy on departmental travel. I 
have here the Department's official Handbook for Travel Policy. 
It does not make for exciting reading, but its common-sense 
rules illustrate our principles.
    The very first requirement is that travel will be 
authorized ``only when it is necessary to accomplish the 
Department's mission in the most effective and economical 
manner.'' Travel outside a 35-mile radius of the employee's 
daily commute must be authorized by the Department.
    A Travel Management Center makes all arrangements, 
searching for best values and Federal discounts. Use of an 
outside contractor for official travel must be justified in 
writing with a cost comparison. We also have strict policies 
regarding acceptance of payment for official travel from non-
Federal sources. Such an acceptance must be approved by the 
Department's chief of staff with concurrence by the Ethics 
Division of the Office of the General Counsel.
    Under the Constitution, education is primarily a State and 
local responsibility. Much of our work entails person-to-person 
contact with our numerous State and local partners and 
stakeholders, the people who administer programs for 54 million 
K-12 and 22 million post-secondary students. One of the most 
effective ways to communicate with them is through conferences 
which enable us to interact with hundreds or thousands of 
people at a time.
    Take our Federal Student Aid (FSA), conferences. These 
conferences are a critical source of training for financial aid 
administrators. They allow us to provide more than 6,000 
participating schools with updates on changes to Title IV 
student aid programs and policy.
    For the past 2 years, FSA has hosted two Electronic Access 
Conferences per year--one in the East and one in the West--with 
plans to move to a single conference in 2008.
    Each conference is attended by as many as 2,500 customers 
who choose from up to 70 informative training sessions. FSA 
staff serve as session instructors and provide logistical 
support. They account for less than 10 percent of total 
conference attendees annually.
    We have also held conferences on the new IDEA legislation 
and regulations, helping State and local education officials 
learn about new provisions affecting students with 
disabilities. In addition, we have held conferences on the 
Title I program for low-income students.
    Hundreds of our educational partners and stakeholders 
attend workshops and confer with Department officials on a 
variety of subjects. These range from changes to Department 
regulations, to aligning instructional methods with State 
accountability standards, to providing choice and supplemental 
educational services to a greater number of families.
    Much of this recent conference activity was spurred by the 
passage of the No Child Left Behind Act, the greatest education 
accountability law in our Nation's history. These conferences 
actually improve accountability. They help stakeholders better 
understand how to increase academic achievement for all 
students. They also help grant recipients avoid missteps that 
could lead to costly program fraud, waste, or abuse.
    In the most recent fiscal year, about $6.3 million was 
spent on conferences, a figure that included normal staff 
salaries, which would have been paid regardless of the setting. 
By contrast, our Department's discretionary budget was more 
than $56 billion.
    Seventy-six percent of the conferences sponsored or 
attended by the Department staff between October 2004 and May 
2006 involved fewer than three Department employees. A total of 
67 conferences were held in the Washington, DC, area.
    We are using technology to further reduce the need for 
travel. Our use of videoteleconferencing has increased by 78 
percent since 2003.
    We recognize that accountability does not occur without 
transparency, and we are increasing our efforts. Our Office of 
Communications and Outreach has compiled information on annual 
conference attendance and sponsorship, coordinating with 
various offices to find ways to improve their management and 
administration.
    And Weekly Speaking Reports let our senior officials know 
who is going where and why, and how this contributes to meeting 
the Department's goals and priorities.
    As we continue to implement No Child Left Behind Act's 
accountability provisions, we must hold ourselves accountable 
as well. We are working hard every day to set a good example.
    Prior to 2001, the Department of Education had earned only 
one ``clean'' audit. We are about to receive our fifth 
consecutive. We were the first Cabinet Department to achieve 
``green'' status on the Improved Financial Performance PMA 
scorecard. Our administrative expenses account for only about 2 
percent of our total budget. And in 2004, we received the 
Presidential Award for Management Excellence for improved 
financial performance.
    We are continuously searching for innovative new ways to 
accomplish our goals in the most effective and efficient 
manner. Those goals include measuring and improving academic 
performance, sharing best instructional practices, promoting 
global competitiveness, and reducing conference costs.
    We will continue to improve our financial management and 
oversight of policies governing conference and travel-related 
costs. And we are eager to work with the Office of Management 
and Budget and Congress every step along the way.
    Thank you very much for the opportunity to present.
    Senator Coburn. Thank you, Mr. Clark. Mr. Hugler.

 TESTIMONY OF EDWARD C. HUGLER,\1\ DEPUTY ASSISTANT SECRETARY 
     FOR OPERATIONS, OFFICE OF THE ASSISTANT SECRETARY FOR 
    ADMINISTRATION AND MANAGEMENT, U.S. DEPARTMENT OF LABOR

    Mr. Hugler. Senator Coburn and Ranking Member Carper, thank 
you for the opportunity to testify on behalf of the Department 
of Labor. My name is Ed Hugler, Deputy Assistant Secretary for 
Administration and Management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hugler appears in the Appendix on 
page 258.
---------------------------------------------------------------------------
    The Department of Labor is very proud of its record of 
fiscal restraint, management excellence, and of ensuring that 
every Federal dollar is well spent. The President's 2007 budget 
request is the lowest discretionary budget authority for the 
Department of Labor since fiscal year 1997. Between 2001 and 
2007, the Department's discretionary budget has declined by a 
cumulative 8.7 percent.
    At the same time, the Department of Labor remains the only 
Executive Branch agency to achieve a ``green'' status rating on 
the President's Management Agenda for all five initiatives. 
And, in addition, the Department has received nine consecutive 
clean audits of its financial statements from its Inspector 
General.
    Since 1993, the Department has had permanent authority to 
pay for attendance at meetings which are related to the 
activities for which we receive appropriations or which 
contribute to better management of those activities. With our 
focus on doing more with less, and on fiscal accountability, 
the Department has very structured controls around 
participation in and sponsorship of conferences to ensure that, 
in fact, they do clearly align in advance with the Department's 
mission, promote the accomplishment of our performance goals, 
and enhance the ability of our employees to better serve the 
public.
    Some of the criteria that we consider in approving 
conference participation include: Educating the public about 
the programs of the Department of Labor that enhance employment 
opportunities, business prosperity, and worker safety and 
health. We also consider promoting compliance by helping 
employers and employees better understand our labor laws. And 
we also look for opportunities to help workers acquire the 
skills that they need to be competitive in the 21st Century 
workforce.
    The Department also has very specific guidelines for 
conference selection. That would be for conferences that we 
sponsor. It includes cost comparisons and travel costs to focus 
attention on choosing the site that is in the best interest of 
the Federal Government. In addition, the Department has 
specific policies governing authorization of travel expenses 
for conference attendance. These guidelines ensure that 
managers only authorize travel that is necessary to accomplish 
the purposes of the government and include specifically 
consideration of budget constraints, adherence to our travel 
policies, and the reasonableness of expenses. And I might add, 
Dr. Coburn, that they also specify consideration of 
alternatives such as teleconferencing.
    Mr. Chairman, in response to your request, the Department 
of Labor has provided budget data on total obligations for 
conference activities in fiscal year 2001 through 2006, 
including estimates for the last 2 months of this fiscal year. 
That data shows that Labor obligations were $5.1 million to 
sponsor, cosponsor, or participate in conferences in 2005, 
which represented about four-tenths of 1 percent of the 
Department's total discretionary budgetary resources.
    For 2006, we estimate that conference-related obligations 
will decline to $4.7 million, a reduction of about 8 percent 
below the year-earlier level, and 28 percent below the 2003 
level.
    At this time we expect Labor's total obligations for 
conferences in fiscal year 2007 to be at or below the fiscal 
year 2006 levels.
    I thank you very much again for the opportunity to appear 
today, and I look forward to your questions.
    Senator Coburn. Thank you for your testimony. Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman. I have no statement. 
I think I would just like to get right to the questions, if 
that is OK with you.
    Thank you very much for being here and for your testimony 
today. Could we just sort of go from my left to my right, your 
right to your left, and let me just ask each of you to share 
with us one or two of your best practices that you think other 
agencies would be well to emulate as we try to restrain the 
growth of costs in conjunction with travel and conferences.
    Ms. Fiely. Sure. As I said earlier, anyone wanting to have 
their bureau or office host a conference, we have them go 
through a cost comparison and come up with three alternatives, 
and we go with the most economical alternative, taking into 
consideration not only the hotel and per diem costs of the 
actual location, but the actual flight costs of people that 
will be attending as well, since we are a worldwide 
organization. For example, oftentimes if you want to go to 
Africa, you have to go to Europe first, so it gets very 
expensive. So you have to figure out the various trails that 
people have to take.
    Also, in our office we have individual approval procedures 
within each bureau and office that are instituted on a 
procedural level, sort of like desk-type procedures that each 
office has to follow in getting approvals. We have an approval 
for over 30 folks, which I think you heard some of the other 
agencies have that, and that is also in the CFR that requires 
that.
    We have tried the use of telecommunications and 
teleconferencing. It becomes very problematic in some of the 
countries that we are located in because the bandwidth is just 
not there to avail ourselves. But we do try to take advantage 
of that whenever we can.
    Senator Carper. OK. Thanks. Ms. Hatfield.
    Ms. Hatfield. We do have a departmental policy that if it 
is going to be a conference of more than 30 people, the 
programmatic Assistant Secretary has to approve that. And as a 
part of the justification for doing that, the proponent of the 
travel would have to also supply information about the hotel 
rates, would have to provide estimates of airfare from various 
cities to look at the alternative that the official can select 
from in terms of whether or not--or which location we would 
actually have the conference in. And at the same time, the 
justification, as many of the others have indicated, does have 
to specify what the purpose of the conference is and how that 
does relate to our mission. And so all of that is done up front 
as a routine, and it has actually been the routine in the 
Department of the Interior for a number of years.
    In addition to that, as I said, we have invested in our 
bureaus to enable videoconferencing and teleconferencing across 
the country. Recognizing that a large part of our 70,000 
employees are located west of the Mississippi River, that does 
enable us to do a lot of business from Washington to our field 
locations.
    At the same time, we have also created the capability of 
having broadcasts so that we do some of our training by 
broadcast from a central location and have our employees 
actually take the training at their local location through a 
conferencing capability and television capability.
    So we have worked on that for some time because we have 
recognized that every travel dollar that is used is something 
that does take away from our capability to perform the mission 
on the ground. So we have been as innovative as we could about 
that.
    Senator Carper. Mr. Lofthus.
    Mr. Lofthus. Thank you, Senator. One of the things we have 
looked at in our organizations that have large field structures 
and that have a nationwide presence, we have looked very 
closely at the videoteleconferencing abilities of our 
organizations. The Bureau of Prisons, I already mentioned, is a 
heavy user; the FBI is a heavy user of teleconferencing; the 
U.S. Attorneys, and the U.S. Trustees. So we are trying to look 
for alternatives to going out and physically holding 
conferences and having people travel in at great expense. That 
has allowed us to take some organizations that traditionally 
had annual conferences to meet with their field offices and 
their field employees. They are now able to have those 
conferences in some cases every other year or maybe once every 
3 years, and that has been a tremendous savings, and I think 
that is one of the reasons you see the Justice Department 
overall travel and conference costs diminishing.
    Also, on a given outside schedule of training or conference 
event, we have a policy that limits the number of people from 
an individual office that can go to that event, so we do not 
have the entire office get up and go. We try to select one or 
two people who can go and then come back and share the benefits 
of the conference with others.
    Senator Carper. Good. Thanks. Mr. Clark.
    Mr. Clark. Thank you, sir. We have recently installed 
teleconferencing facilities within most of our regional 
locations that will help us with training, sharing information, 
etc., across the Department.
    The second thing that I would cite is that we have 
instituted an annual review by our Office of Communications and 
our Management Improvement Team that are looking at the 
spending for conferences and attendance and travel to ensure 
that we are getting the best use of the dollars that we have.
    We still believe that the program offices have the best 
understanding of the requirements, but we have instituted a 
department-level review to ensure that--and to look and 
hopefully identify opportunities for having, if you will, 
multi-purposes conferences within more than one program office 
participating.
    Senator Carper. Mr. Hugler, before you answer, let me 
telegraph my next and probably last question, and I am going to 
go back through your ranks and ask you to tell me where you 
think--you may have been talking about some of what I call the 
low-hanging fruit in some areas where you have made good 
progress. But let me come back and ask you where some work 
still is to be done in each of your departments that you are 
aware of, please. Mr. Hugler, if you would just respond to my 
first question.
    Mr. Hugler. Yes, I will. Let me presage my remarks with the 
fact that I have been in Federal service for nearly 30 years, 
so I have participated in many conferences, and I have 
authorized participation in many conferences.
    Senator Carper. Have there ever been any conferences when 
you have finished them you say, ``I am not sure that was really 
worth the money we spent''? I think I have.
    Mr. Hugler. I think I have, too, and I did not go back 
again. I agree with you. It looked good on paper, and it was 
not what I expected it to be. I think they were rare, but that 
did happen.
    I think the bottom line, though, is to have internal 
controls at the point the decisions are made whether or not to 
participate in the conference. I really think that is the 
bottom line. I think it is difficult to, if you will, legislate 
financial discipline. That needs to be part of an 
organizational culture. People need to understand that is the 
environment they are operating in, and I really do think that 
is the best solution to control spending as it relates to 
conference attendance.
    Beyond that, I think having the proper level of management 
review counts for a lot. I review travel authorizations, travel 
requests, conference requests, and am very picky about what 
gets approved because we do have limited resources.
    I think also it is very healthy to have what I will call 
strong audit controls so when I turn in a travel voucher I know 
it is going to get audited, and I know people have a checklist 
which they are going to check me against, and if I have asked 
for more than I am due, I am not going to get it and I am going 
to get asked why I submitted it. I think that also improves the 
environment.
    Beyond that, teleconferencing and videoconferencing, I 
think, is very successful internally to the Department of 
Labor. I myself participate in no fewer than probably three 
meetings a week that participants are conferenced into. So that 
works in my own personal experience, as does videoconferencing. 
That is a little more complicated inasmuch as you have to have 
compatible technology on both ends.
    But those would be the main things that I would commend 
attention to.
    Senator Carper. Good. Thanks. Mr. Chairman, do I have time 
to do the second question?
    Senator Coburn. Sure.
    Senator Carper. Good. Thanks.
    If we could come back, in no particular order, when you 
look at your own departments and areas where some work is still 
to be done, where there is some savings still to be found, what 
might those be? And if you cannot think of any in your own 
department--I hope you can, because I say it about my own 
office, and I said this when I was governor, too. Everything we 
do I know we can do better. And I suspect the same is true for 
you all.
    Ms. Fiely. I guess where I would come from on this one is 
it is not so much the conference fees. For the most part, 
conference fees are a minor portion of what it costs to go to a 
conference, and especially with our Agency being international, 
it is the travel cost. And I would say if anything were going 
to be looked at closely, it would be the travel regulations. I 
think right now in some cases the travel regulations tie our 
hands where we are going with city pairs and we could go out 
directly and get cheaper flights. There are ways to save money 
by being able to avail yourself, and in some cases the agencies 
cannot.
    Also, at least in the case of USAID----
    Senator Coburn. Let me interrupt you there. Can you tell us 
what we need to do so you can? That is a key--this is a common-
sense thing.
    Ms. Fiely. Sure. I would like to be able to give you that.
    Senator Coburn. You cannot make a decision that saves us 
money because some Federal regulation keeps you from doing it.
    Senator Carper. Or a law.
    Senator Coburn. Or a law.
    Ms. Fiely. I would welcome an opportunity to give you 
something as a follow-on.
    Senator Coburn. I would very much appreciate that. Thank 
you.
    Ms. Fiely. Sure. I would like to put something together and 
get it to you.
    Senator Coburn. I would welcome that.
    Ms. Fiely. But that is where I think the real savings is, 
in restructuring the travel regulations and allowing people to 
take advantage of a lot of the savings that is out there.
    Senator Carper. All right. Thanks. Anyone else, please? No 
particular order.
    Mr. Hugler. I would just make one other suggestion. At the 
Department of Labor, we have used more and more training by 
computer over the Internet among our employees. Again, when we 
have requirements to train every employee in the Department of 
Labor, 16,000 or 17,000 people, that has the potential to be--
not necessarily a lot of conferences, but certainly a lot of 
meetings and bringing people together, that can be avoided and 
very cost effectively avoided by what I will call computer-
based training. We have annual requirements for all employees 
to receive certain training, and we have done that for the last 
several years over the Internet, and it does two good things. 
One is it allows the employees to take that training when they 
have the time. And, two, we have a record of when, and the fact 
that they completed the training. So both of those are very 
cost effective.
    Senator Carper. Thanks. Anyone else, please?
    Ms. Hatfield. That has also been true at Interior. We have 
really intensified the use of computerized training for the 
same reasons, especially when you have things like computer 
security training in which all of your employees have to have 
that training in order to continue to have access to their 
computers. We do that via the computer, and that does give us a 
record.
    I think that we have also tried as a management team to 
look at some internal policies, at things like not having 
multiple employees have multiple rental cars at the same 
conference and things like that, so that we would decrease the 
overall travel costs.
    So I think there are things like that that we continue to 
do.
    Senator Carper. Mr. Lofthus.
    Mr. Lofthus. I would just add one thing, which is in terms 
of the biggest payoff for us, I think it has come from simply 
more vigorous scrutiny of the necessity of the conference in 
the first place. I know when we were looking at proposed 
conferences that some of our organizations wanted to do this 
year, we looked at them and we asked some questions, and so far 
this year, we have canceled 13 conferences because of the view 
that they could be done through another fashion or maybe they 
are annual conferences and we can get away with doing them once 
every couple of years. And there is a real payoff there.
    Senator Carper. Thanks. Mr. Clark.
    Mr. Clark. I would echo some of the comments from others. 
We, too, have increased our use of the Internet to do the 
training that we do, for computer training, for our coop 
training, and for other areas, and we are looking for other 
opportunities to build other courses that we can do online.
    In addition, I guess I would encourage us to look at the 
use of electronic tools to manage conference attendance and 
travel so that we can do a better job of identifying issues up 
front and then being able to reconcile at the end or audit, if 
you will, at the end the amount that is paid and the number of 
attendees at the conferences, etc.
    Senator Carper. Thank you.
    Ms. Fiely gave us something for our to-do list, and I think 
she is going to come back to us in writing. And let me just 
ask, if you will, for each of you to put on your thinking caps, 
talk with your other colleagues with whom you work, and come 
back to us maybe in writing in the next week or so and tell us 
some things that we need to do or that we need to ensure that 
others do, maybe within the Executive Branch, to better realize 
the further savings opportunities that are out there.
    This has been most informative. Thank you to each of you.
    Senator Coburn. I would echo Senator Carper. We know you 
all have competence, and sometimes we are your greatest 
hindrance in doing what you know to do because there is some 
regulation or some assumption that you are not going to do it 
right, so somebody has put a regulation in to protect it. If we 
cannot trust our Federal employees, we might as well hang it 
up. And so what we have to do is put regulations out there that 
assume people are going to do the right thing, not assume 
people are going to do the wrong thing.
    And, on my staff, I know, you go to the travel office here, 
and then you get on the Internet right after that, and you can 
find oftentimes a fare 40 percent less than what the travel 
office just gave you, which was ``the best fare.'' And so we 
need to give you the flexibility to do your jobs. You are 
trained to do them. You are executive leaders. You know what to 
do. And we need to do that. So I would echo that.
    I want to make a couple of comments. We have had a 70-
percent increase--well, we do not know what it is going to be 
through the end of this year, probably a 72-, 73-percent 
increase in conference spending. And yet the Federal Government 
has grown by 48 percent during that time. So there has got to 
be something here that we are missing that says why have 
conferences and conference spending--the other point--and that 
is what I want you to think about. And I understand USAID. We 
have done all this stuff in Africa on PEPFAR and AIDS and all 
this other stuff, and the Justice Department, I can understand 
that as well. But some things, for example, Interior, we have 
never been able to get your numbers. Yours are the first 
numbers we have been able to get. And part of that has to do 
with the management and accounting systems within Interior. 
They do not have the tools to get the numbers.
    Well, you cannot manage what you cannot measure, and so the 
President's Management Agenda is a key part in being able to 
control this as well as many other expenditures.
    Ms. Hatfield. If I might comment on that, sir?
    Senator Coburn. Sure.
    Ms. Hatfield. We have about 17 different financial systems 
operating at the moment, all of which are no longer supported 
by their vendor. So we are in the process now of trying to 
bring up a modern financial system for the Department so we 
will have a single system. And, undoubtedly, that effort is 
going to help us in terms of being more accountable in an 
easier fashion than having to do the kind of data calls that we 
are doing now to get that data.
    But I would point out that we have actually, to the extent 
that we can track it, reduced the overall costs that we are 
spending on conferences over the last 5 years. So I think that 
is indicative of the fact that we are very conscientious about 
it.
    Senator Coburn. Why couldn't my staff have that data, 
couldn't get it? The fact is when we inquire to get it, we 
cannot get it.
    Ms. Hatfield. It is very difficult.
    Senator Coburn. Your staff cannot give it to us, and so I 
would love to see those numbers.
    Because we are pressed for time--we do have a vote that is 
scheduled for 4 o'clock--I am going to be submitting to each of 
you very specific questions. I am highly concerned about some 
of the conferences that I have read about, some of the agendas 
of some of the conferences I have read about. And I am not 
going to put that out--it will become a part of the record in 
the questions that we ask, with no blame and no thought that 
anybody intentionally is wasting any money, but to get you to 
answer back, and let's make this--if we make small things--all 
the small things on significant issues, before you know it we 
will be declining the size of the Federal Government. We are 
making it much more efficient, and we are preserving future 
opportunity and the American dream for our grandchildren.
    I want to thank each of you for your testimony. We would 
like to have fairly prompt responses, if you can. If you can't 
respond promptly, just say, ``We can't respond promptly because 
it is going to be difficult for us to get this,'' and we 
understand that there are other issues that you are struggling 
with.
    Let me thank you for being here, and we will call forward 
the next panel.
    Senator Coburn. On panel two, we have Clarence C. Crawford, 
Chief Financial Officer, Office of Personnel Management; Eugene 
Schied, Deputy Chief Financial Officer, Department of Homeland 
Security; Jeff Nulf, Deputy Assistant Secretary for 
Administration, Department of Commerce; Richard Holcomb, Deputy 
Chief Financial Officer and Acting Deputy Assistant Secretary 
for Headquarters Operations, Department of the Treasury; and 
Hon. Charles R. Christopherson, Chief Financial Officer, 
Department of Agriculture.
    Welcome to you all, and you will be recognized for 5 
minutes, and then we will have questions. Mr. Crawford.

TESTIMONY OF CLARENCE C. CRAWFORD,\1\ CHIEF FINANCIAL OFFICER, 
                 OFFICE OF PERSONNEL MANAGEMENT

    Mr. Crawford. Thank you, Senator Coburn and Senator Carper. 
In the interest of time, I will just summarize my points.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Crawford appears in the Appendix 
on page 312.
---------------------------------------------------------------------------
    Senator Coburn. Good.
    Mr. Crawford. We are happy to be here on behalf of the 
Office of Personnel Management. We are happy to be here to be 
able to testify before you. My Director, Linda Springer, is a 
former CFO in the private sector, so she is very much committed 
to ensuring that OPM spends taxpayer dollars wisely and that we 
use those funds to carry out our mission, which is to ensure 
that the Federal Government has an effective workforce.
    OPM supports the prudent use and participation in 
conferences, those conferences that actually help to improve an 
employee's ability to do his or her job.
    As a central agency, we receive numerous requests to 
present or to participate in conferences. Director Springer has 
made it very clear to the senior staff to scrutinize every 
conference. Supervisors understand that they are to make sure 
that the conference makes good business sense, make sure that 
it supports our mission, and make sure that we send the right 
person.
    To complement our efforts in this regard, we have also 
implemented a new strategic plan. We are in the process of 
changing our culture and instilling sound financial management 
throughout OPM. In large measure, that is why we have been able 
to manage our conference spending at about 4 percent of our 
personnel compensation cost.
    In 2004, we made a decision to change the way we sponsor 
conferences. Rather than continue to host a number of 
conferences throughout the year, as we have done in the past, 
OPM decided to consolidate our conferences and offer one 
Federal human capital conference, and that conference is held 
about every 18 months. And we have found that to be an 
effective way to deliver information to the human capital 
community. In addition, we obviously are webcasting. We are 
posting things on the Web. We are doing videoconferencing as 
well.
    Our conference spending for 2004 was $358,000, for 2005 it 
was $331,000. We are expecting this year to have it come in at 
about $327,000. We are projecting conference spending for 2007 
to be $177,000.
    Mr. Chairman, we would be happy to take any questions that 
you have.
    Senator Coburn. You have said enough. Music to my ears. Mr. 
Schied.

TESTIMONY OF EUGENE SCHIED,\1\ DEPUTY CHIEF FINANCIAL OFFICER, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Schied. Thank you, Chairman Coburn, for this 
opportunity to testify before you today on travel and 
conference spending at the Department of Homeland Security. I 
will briefly summarize my statement that I have submitted for 
the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schied appears in the Appendix on 
page 334.
---------------------------------------------------------------------------
    Travel and conference attendance are important and 
necessary to DHS' fulfillment of its mission. Secret Service 
agents travel regularly to fulfill their protective 
responsibilities. FEMA employees travel and spend extensive 
time away from home when responding to disasters. Air marshals 
travel daily to protect our aviation transportation system. As 
I am sure you agree, travel expenses are necessary to DHS.
    Travel costs related specifically to conferences are a 
relatively small portion of our overall budget and a small 
portion of our travel budget.
    Senator Coburn. Let me interrupt you for a minute to make 
sure you understand. This is not about legitimate travel within 
your agency. This is about travel and conference costs.
    Mr. Schied. OK. Conferences are an important part of DHS' 
outreach efforts with our other Federal, State, local, 
international, and private sector partners. Often this involves 
travel outside of Washington to meet with those partners in 
homeland security. DHS' participation in conferences can be a 
cost-effective way for DHS to communicate with our 
stakeholders.
    I know that appropriate discretion must be taken and used 
in deciding when to travel to conferences. I believe I share 
the Subcommittee's concerns that conference dollars must be 
spent judiciously, limited to necessary government 
participation. Policies governing employee travel are the 
responsibility of the CFO. In his testimony yesterday before 
the House Government Reform Subcommittee on Government 
Management, Finance, and Accountability, DHS CFO Norquist 
outlined financial management improvements DHS is pursing, 
including people, policies, processes, systems, and assurance. 
Three of these five areas are important to how we are trying to 
improve our oversight of conference spending.
    First, DHS is in the process of building a comprehensive 
set of financial management regulations to govern DHS-wide 
financial management operations. We need to develop one DHS way 
of conducting financial management, including policies related 
to travel and conferences.
    DHS has management directives that specifically address 
travel for office government business and attendance at 
conferences and meetings. The current management directives on 
conferences encourage DHS employees to participate in 
conferences as a means of exchange and communication of ideas 
and knowledge; however, the directive recognizes that 
attendance must be prudent, relevant to the employees' job 
performance, and beneficial to the mission of DHS.
    We will be supplementing the new policy with a guidebook 
that outlines questions that approving officials and travelers 
should contemplate when choosing to attend conferences.
    The second area of improvement needs to be our ability to 
oversee travel spending through information systems, and as you 
mentioned, sir, to the last panel, you cannot manage what you 
cannot measure. Producing the type of information requested by 
this Subcommittee for DHS is a very manual-intensive process, 
which explains much of our delay in responding to your 
information requests. Manually intensive processes I find are 
also much more prone to error and inconsistency in reporting, 
which is why to date the Department has only been able to 
provide partial information for fiscal year 2006. While some of 
the data, such as total travel spending, writ large, is 
relatively easy to obtain through the Federal accounting 
classification, salary costs and other costs associated 
specifically with conference attendance is not readily 
extractable from our automated financial systems.
    The final area in which we need to improve is in the area 
of assurance. DHS must have in place a means by which we can 
test the policies and procedures that we have to assure that 
our internal controls are well designed and operating 
effectively. Managers cannot assume that the controls are only 
working well just because the auditors do not tell us to the 
contrary, and so to this end, the CFO is creating a CFO's 
assurance team that will test the processes and validate 
effectiveness of controls such as those over financial 
conference attendance.
    Mr. Chairman, DHS is very committed to the responsible 
stewardship of the taxpayer's dollars entrusted to us by 
Congress. We know the dollars are limited, the DHS mission is 
large, and we must take steps to assure that we are putting 
their dollars to the best use. Most of the travel spending is 
necessary to the mission and, likewise, conference attendance 
can be an important tool by which we communicate with the 
public and our partners in protecting the homeland. However, we 
recognize travel and conference attendance, as with all things 
that we do, has its vulnerabilities to waste and abuse. It is 
the responsibility of the CFO's office to promulgate travel and 
conference policy and, thus, also to monitor the spending in 
ways that we can ensure our policies are effective.
    Thank you for the opportunity to share this information, 
and I look forward to your questions.
    Senator Coburn. Thank you. Mr. Nulf.

TESTIMONY OF JEFFERY K. NULF,\1\ DEPUTY ASSISTANT SECRETARY FOR 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Nulf. Good afternoon, Chairman Coburn. Thank you for 
the opportunity to testify before you on behalf of the 
Department of Commerce on the topic of conference spending in 
Federal agencies.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nulf appears in the Appendix on 
page 378.
---------------------------------------------------------------------------
    Your requests for information and the invitation to speak 
to you today have focused attention on an area that, for the 
Department of Commerce, not only is an important element in 
mission support and employee development, but also presents an 
opportunity for savings at a time when we are trying to do more 
with fewer resources.
    In furtherance of sound management and as a result of 
current and coming budgetary constraints, the Secretary and the 
Deputy Secretary have instructed the Department's Presidential 
Appointees and Heads of Operating Units to direct resources to 
mission-critical activities, and to do so by taking a hard look 
at what is expended on administrative functions. All elements 
of the Department have been charged with meeting our program 
responsibilities efficiently and effectively while reducing the 
amounts spent on non-essential activities. Our bureaus report 
to the Deputy Secretary on a quarterly basis regarding their 
performance in this and other areas.
    The Department of Commerce is a diverse organization, as 
you know, largely scientific, with numerous compelling 
responsibilities. It is essential for the employees working 
towards accomplishing the Department's missions to have a 
current understanding of developments in their program areas. 
Commerce employees predict the weather, manage the Nation's 
fisheries, allocate radio spectrum, and we create better ways 
to measure everything from the structure of atoms to the 
flammability of buildings. Our employees help American business 
learn how to expand markets for their products, count people 
for the census, and support the Nation through the provision of 
economic information such as quarterly reports on international 
trade activity, residential construction and sales, and the 
gross domestic product.
    Participation at critical conferences furthers these 
mission-related activities by providing continuing education 
for our scientists, our engineers, economists, and other 
professionals. Conference attendance also furnishes venues 
where the exchange of ideas in an intellectually stimulating 
environment can lead to new solutions to problems faced by our 
country and the world. We believe that investment in conference 
attendance, balanced with sound stewardship of taxpayer 
dollars, is necessary for the Department to meet its 
responsibilities to U.S. citizens and the world community.
    The Department is a large organization with extremely 
varied responsibilities. We have in place no single policy that 
governs conferences and related activities, nor do we have a 
line item in our budget for conferences or a conference 
spending ceiling to restrict expenditures in this area. We have 
confidence that our managers are making prudent decisions 
regarding which conferences to attend and who should be 
attending them. We do recognize our affirmative obligation to 
restrain resources expended on travel in general and conference 
attendance in particular. Concurrently, we recognize that in 
austere financial times, conference spending is among the top 
candidates for reduction and offers an opportunity for savings 
that can be applied to mission-essential work.
    Although Commerce Department spending increased rapidly 
between fiscal years 2000 and 2003, as you know from the 
information we provided in January, our conference expenditures 
decreased in fiscal year 2004 and fell again in fiscal year 
2005, the most recent year for which we have complete data. In 
examining the available 2006 data, we have identified several 
indicators that we consider positive in terms of the efficient 
use of taxpayer dollars for conferences.
    Among these: The single most frequently used geographic 
area for conferences attended by Commerce employees is local--
right here in the Washington metropolitan area.
    There also is a relatively small number of Commerce 
attendees--five or fewer--that have attended 87 percent of the 
conferences in which Commerce employees are involved.
    Conferences sponsored or cosponsored by the Department 
typically are held in cities where the sponsoring organization 
is located, thereby minimizing travel expenditures as well as 
overall costs.
    As an example, of 69 conferences sponsored by NIST, only 
three were held outside of Washington, DC, or Boulder, 
Colorado, which is where all their employees are located at.
    This is not to suggest that we do not participate in 
conferences held in locations perceived to be more exotic. 
Indeed, the North Pacific Marine Sciences workshop, sponsored 
by NOAA, was held in Hawaii, but this was truly the most 
economical place for this event to occur. Similarly, NOAA's 
cosponsored Gulf of Mexico Alliance meetings were in New 
Orleans and Naples, Florida, both on the Gulf Coast.
    The fiscal year 2006 conference spending data that we have 
collected indicates a continuing downward trend in conference 
spending. To date, the Commerce Department has spent $7.8 
million on conference-related activities in fiscal year 2007 
and 2006. This is about 62 percent of our fiscal year 2003 
high. Projections for fiscal year 2007 suggest that conference-
related spending will drop further, to around $7.5 million. 
These figures are good news, but we remain interested in 
identifying where we might continue our reduction efforts.
    Mr. Chairman, we appreciate and share your concern that 
current technology be used to bring people together for 
electronic conferencing. The Department will continue to seek 
creative means to leverage its ability to video- and 
teleconference in order to reduce, as much as possible, the 
need for in-person attendance at training and professional 
meetings. Consistent with that objective, we have created 
within the Department an online Learning Management System that 
now provides our employees desktop access to over 1,600 
training courses. This, of course, will not take the place of 
professional conferences, but it certainly is an economical 
approach to professional development.
    Mr. Chairman, thank you very much for the opportunity to 
share with you this information about what we are doing at the 
Department of Commerce, and I look forward to answering your 
questions.
    Senator Coburn. Thank you. Mr. Holcomb.

    TESTIMONY OF RICHARD HOLCOMB,\1\ DEPUTY CHIEF FINANCIAL 
OFFICER, AND ACTING DEPUTY ASSISTANT SECRETARY FOR HEADQUARTERS 
          OPERATIONS, U.S. DEPARTMENT OF THE TREASURY

    Mr. Holcomb. Chairman Coburn, thank you for the opportunity 
to appear before the Subcommittee today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Holcomb appears in the Appendix 
on page 419.
---------------------------------------------------------------------------
    The mission of the Department of Treasury is to promote the 
conditions for prosperity and stability in the United States 
and encourage prosperity and stability in the rest of the 
world.
    Communication is the key to our relationship with the 
individual American taxpayer and the corporate entities that 
between them provide the bulk of the revenue that supports the 
business of our government. We use a variety of media to 
communicate our messages in support of the governmental 
activities for which we are responsible.
    We make use of conferences to broadcast and explain matters 
to individuals as well as corporate bodies that relate to 
changes in tax law, tax collection, banking and thrift 
procedures, and commodities regulation. Consequently, the vast 
majority of the conferences we sponsor are either Internal 
Revenue Service or Alcohol and Tobacco Tax and Trade Bureau 
events that focus on taxpayer advocacy, small business 
practitioner forums, or on a specific sector such as the wine 
and alcohol industry.
    The Taxpayer Advocacy Panel within the IRS listens to 
taxpayers, identifies taxpayers' issues, and makes suggestions 
for improving Internal Revenue Service services and aiding with 
customer satisfaction. The Taxpayer Advocacy Panel acts as a 
two-way conduit focusing on taxpayer advocacy as well as 
providing a venue for raising issues by citizens. There are 
seven geographically based area boards aligned with the current 
Taxpayer Advocate Service areas. These area boards address 
local issues and schedule outreach activities. Issue 
committees, with nationwide membership, identify and work 
servicewide issues and are closely linked to the Wage and 
Investment and Small Business/Self-Employed program owners.
    A major part of TTB's mission is to have its industry 
members voluntarily comply with rules and regulations. Part of 
this can be accomplished through field presence via tax audits 
and product integrity investigations. Another very effective 
tool to reach voluntary compliance is to inform our industry 
members of what is expected of them. TTB seminars allow us to 
reach a wide audience and give industry members the 
instructional tools that are necessary to successfully meet the 
Federal rules that apply to their businesses. These events 
represent a cross-section of industry producers, wholesalers, 
and/or importers. They provide outreach to industry members who 
are geographically dispersed across the country and a platform 
for information sharing and learning about current issues and 
trend in the marketplace.
    These seminars attract active permittees, those interested 
in obtaining permits, industry trade associations, industry 
lawyers, and State regulatory agencies. Attendees are able to 
obtain relevant information on Federal rules and regulations 
that apply to their businesses, ask specific questions that 
pertain to their daily activities, receive updates on the 
latest issues that apply to their activities, and important 
contact information. The end result is a better understanding 
of their roles as permit holders and increased voluntary 
compliance with Federal law. It also allows TTB employees to 
hear firsthand the issues and concerns that our industry 
members have pertaining to the regulation of alcohol and 
tobacco products.
    We consider conferences and seminars as vital to our 
understanding and to taxpayer understanding of the rules and 
regulations of tax law and trade code. We consider there is 
nothing more important than an informed public, particularly 
where it involves taxation and compliance.
    We regret the delay in providing the requested information 
that you and your office sought. Our financial databases do not 
distinguish between types of business trips and do not cross-
reference other business expenses. We intend to develop a 
system that will be more responsive to your and our needs in 
the future and will provide us with a positive business tool in 
safeguarding the money entrusted to us by the American public.
    This completes my prepared remarks, and I look forward to 
answering your questions.
    Senator Coburn. Thank you very much, Mr. Holcomb. Mr. 
Christopherson.

TESTIMONY OF CHARLES R. CHRISTOPHERSON, JR.,\1\ CHIEF FINANCIAL 
            OFFICER, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Christopherson. Chairman Coburn, I appreciate the 
opportunity to give testimony concerning conference attendance 
and expenditures at the U.S. Department of Agriculture. The 
USDA is a diverse and complex organization with programs that 
touch the lives of all Americans every day. Our six strategic 
goals for 2005 through 2010 are to: Enhance international 
competitiveness of American agriculture; enhance the 
competitiveness and sustainability of rural and farm economies; 
support increases economic opportunities and improved quality 
of life in rural America; enhance protection and safety of the 
Nation's agriculture and food supply; improve the Nation's 
nutrition and health; and protect and enhance the Nation's 
natural resource base and environment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Christopherson appears in the 
Appendix on page 435.
---------------------------------------------------------------------------
    In order to achieve these goals, the Department leverages 
the services of a vast number of entities. These entities 
include State and local governments, colleges and universities, 
school districts, community organizations, faith-based 
organizations, associations, other Federal agencies, and 
international-based organizations. Conferences are very 
important in the communication, training, and coordination 
needed to deliver the regulations and requirements of hundreds 
of programs.
    The USDA has a formal travel policy that includes 
conferences. As the Chief Financial Officer of the Department, 
the policy is under my administrative responsibility. The 
Department's policy and available funding in the individual 
agencies provide the checks and balances on the sponsoring and 
attending conferences.
    In late August, we provided data on conference attendance 
and costs for the time period between 2001 and fiscal year 
2005. In 2005, the Department's expenditures for conference 
fees equaled approximately $22 million. The costs for 
conferences is approximately 0.02 percent of our total 
expenditures.
    Conferences at the USDA are mainly sponsored by its 
agencies for outreach or training of employees, States, 
colleges and universities, and communities. During 2005, the 
outreach and training conferences accounted for 72 percent of 
total attendance.
    Two groups that I would like to highlight for this 
testimony are our mission areas responsible for Natural 
Resources and Environment and Research, Education, and 
Economic.
    The Natural Resources and Environment mission area includes 
the Forest Service and the Natural Resources Conservation 
Service, NRCS. The 2002 farm bill vastly increased funding for 
conservation by authorizing increased spending for several 
programs under prior farm bills and establishing two additional 
programs.
    While NRCS activities benefit all of the people in all the 
Nation, the primary customers are individuals that make natural 
resource and management decisions on non-Federal lands. These 
include farmers, ranchers, and other members of the private 
sector; units of government; and not-for-profit organizations. 
NRCS partners with other 3,000 local conservation districts to 
assist in implementing its programs. Targeted conservation 
areas and management practices change often. These changes are 
due to various regional management requirements, new research, 
certain conservation practices, natural events, and legislative 
changes. In addition, NRCS has been impacted by a large amount 
of employee retirements in 2004 and 2005. To address critical 
training needs NRCS held ``regional training boot camps'' in 
2005.
    Research, Education, and Economics (REE) is responsible for 
the research and statistics covering the full breadth of the 
Department's programs. Their research benefits the lives of 
Americans and provides competitive advantages to our products 
in the world market.
    REE does not act alone in its research. It is accomplished 
in partnership with universities and other institutions. Much 
of the travel in this mission area involves coordination and 
collaboration with other scientists, institutions, and 
organizations. This enables the REE mission area to be far more 
efficient in carrying out its responsibilities of research, 
education, and economic activities. Such collaboration through 
conferencing avoids excessive duplication and enhances 
efficiency and effectiveness. In addition, our scientists are 
widely recognized for their unique and high level of expertise 
and are in active demand by various groups and organizations to 
share their knowledge and expertise at conferences and 
meetings.
    About one-fourth of the conferences we attend are sponsored 
by non-USDA groups. The subject matter of these conferences is 
geared towards historically disadvantaged groups, State 
government, nutrition, conservation, science, information 
technology, foreign marketing, and safety.
    To help reduce expenses and continue to educate our 
greatest resource, the Department has developed and implemented 
an electronic education medium, AgLearn. This year the system 
has been used by 69,000 employees to complete 1,422 different 
training courses. The Department understands the value and cost 
savings that AgLearn provides as its primary education source 
for USDA employees.
    The Department uses conferences and other methods to 
support the requirements of the mission areas. Due to the 
diversity and breadth of our programs, our conference 
attendance is located across the United States.
    We believe that transparency into the Department's 
expenditures is very important. We have set this as a goal in 
our strategic plan as well. Through our Financial Management 
Modernization Initiative, we have addressed the need for 
electronic approvals and detailed centralized information for 
management. During this initiative, we will include an 
evaluation of our current policies and procedures, including 
the approval of underwritten and attended conferences.
    I appreciate this opportunity to testify and would welcome 
any questions.
    Senator Coburn. Thank you. I thank each of you.
    Let me just go through a couple things. Secretary, the 
budget for conferences and spending in the year 2000 for the 
Department of Agriculture was $6,600,000, and you just told me 
it was $22 million in 2005. That is almost a 400-percent 
increase in conferences, when we are having the biggest budget 
deficits that we have had in our history. Explain that to me.
    Mr. Christopherson. Well, there are a couple of issues 
there. One, I would say our 2001 numbers were difficult to 
obtain, at best, and may not be fully correct. I think you will 
see that as you get into 2002, you see numbers that are more 
respectful to what----
    Senator Coburn. I actually quoted you a 2000 number, not a 
2001 number. And you are saying that is a questionable number, 
too?
    Mr. Christopherson. As we went back, correct. We actually 
run our nine general ledger systems. All of them, as you have 
heard from other members, they are not supported by their 
vendors anymore. We have travel vouchers at probably close to 
6,000 to 7,000 different offices in which we accumulate data, 
and we are addressing this through our modernization effort, 
but we are not quite there yet.
    Senator Coburn. Good enough. Treasury, according to the 
numbers that I have, went from--it doubled from 2001 to 2005.
    Mr. Holcomb. Correct, sir. Yes, sir.
    Senator Coburn. OK. How much digital videoconferencing do 
you all do on a lot of this training? Are you utilizing that?
    Mr. Holcomb. Sir, the cost increase was in large part 
driven by the IRS' increase in Taxpayer Advocacy Panel meetings 
and outreach to taxpayers in their geographical regions. It 
reflects the IRS' effort for education and positive marketing.
    Senator Coburn. Well, let me clarify that. Then that should 
not be included in conferences. That is part of your function. 
A conference is not where you go to teach somebody else. It is 
where you go to learn from somebody else. And I think we need 
this clarification. This is a real important thing. If you are 
carrying out your mission by teaching the American citizens and 
the recipients of your Department information where you are 
holding the conference for them, I am not as concerned about 
that as I am us going for us. And so if you can clarify some of 
those numbers, I think it would be important.
    Mr. Nulf had said you all do not have a line item for 
conferences.
    Mr. Nulf. That is correct.
    Senator Coburn. And it is interesting to me--and your 
statement was, I believe, that you feel comfortable with your 
management of conferences--Hawaii Association of Land 
Surveyors, Honolulu, Hawaii. Niederberg Auction and Wine 
Conference, South Africa.
    Mr. Nulf. Yes, sir.
    Senator Coburn. You feel real comfortable that those two 
are necessary for you all to carry out your function and that 
the employees that took that did not take extra time off to use 
the Federal Government's airfare to go to South Africa or 
Hawaii?
    Mr. Nulf. Correct, sir. The Niederberg Wine Conference, one 
attendee was there from ITA, who was based in South Africa, 
sir. It cost the government approximately $378, and that is 
actually a reflection of that person's compensation during the 
course of the day.
    We have 378 employees primarily based at NOAA in Hawaii, 
sir, for the conferences that----
    Senator Coburn. But this was not a NOAA--or I guess it 
would have been if it is land survey, satellite survey.
    Mr. Nulf. Yes, sir.
    Senator Coburn. OK. All right. Good answers.
    DHS, from what I can see, conferences at the Department of 
Homeland Security have doubled in terms of dollars and 
quadrupled in terms of numbers. Is that accurate?
    Mr. Schied. I do not necessarily think that would be 
accurate for the reason of, again, going back, some of the data 
we have reported in past years I think is spotty. I think some 
of the information, again, like I said in my testimony, for 
2006 is also--we are having--still having a challenge getting 
together information, getting a common set of definitions 
across all our components so that, as you just pointed out, 
some of what we have reported is conferences where we go out 
and reach out to others. So sorting through that to try and get 
an apples-to-apples comparison is still challenging for us.
    Senator Coburn. Well, that is 2005 to 2006. That is 2.5 
times, from 6.1 to 15.4, and from 600 conferences to 2,200 
conferences.
    Mr. Schied. The data for 2005 did not include--I am pretty 
sure did not include the largest conference organization within 
DHS, which is the Coast Guard. We were unable in 2005 to get 
information from them. They are included in the 2006 
information, and they are close to a third, if not a half of 
the information that we have provided to the Subcommittee for 
2006.
    Senator Coburn. That is fair. I am going to be here 4 more 
years, so the idea that we do not have the data today, that 
does not work next year when we have another hearing. We have 
got to know. And I will say that to the staff that are here 
from the previous testifiers. We are going to get good numbers, 
and we are going to follow them, and you all are the chief 
financial people that manage that. And I am fine with that. 
That is a legitimate reason to have a difference that is 
explainable. It will not be next year, and it will not be the 
year after that, and it will not be all the way up to 2010.
    Why wouldn't the Coast Guard have provided how much money 
it spends on conferences?
    Mr. Schied. Sir, I do not know why it was not reported for 
2005. For 2006, they were able to get it and it was reported.
    Senator Coburn. OK. Well, we will submit questions to you 
all. We would love to have quick turnaround. I am going to 
release to the press my summary that my staff has done for me 
on this last year. As a matter of fact, I will tell you what I 
will do. I will not release it to them yet. I will release to 
you first, and you straighten this out where we are wrong in 
terms of individuals, where you think we have made a wrong 
assumption, because we cannot know what you know. That is part 
of what this is. And then after that, then we will release to 
the press some areas of concern we have. We will not do that 
until you have had a chance to look at it and justify it.
    We will submit questions. Again, the question that has to 
be in your mind--and this is different. OPM is going the other 
way. The Department of Labor is going the other way. Think 
about the fact that we are spending money on conferences at 
twice the rate the Federal Government is growing, and that is 
something we cannot sustain. And I would also suggest in my--I 
have an accounting and production management degree and ran a 
good size business for a period of time. My experience is that 
if you put something that has to be accounted for on paper, 
people watch it. And I would suggest a line item on travel-
related expenditures and conference expenditures in every 
Department of this Federal Government.
    Again, I am going to go back and say probably 85 percent of 
everything we are doing absolutely has to be done. I do not 
have any criticism of that. If we can save 15 percent 
everywhere in the Federal Government in everything that we do, 
we preserve the future for our kids.
    The other thing--and I did not get a chance to say it to 
the others--I want to thank you for your service. A lot of 
people will not step up and do what you do, will not take--we 
have this attitude. We have fantastic Federal employees in this 
country. The biggest problem is Congress will not let them 
manage, and we do not let information flow up from the actual 
people through the management to get the best value for our 
money. So it is not about you and it is not about being 
critical of individuals who are serving this government. It is 
about how do we all work together to make the best future we 
can for the next couple of generations?
    So I want to personally thank each of you for your service, 
as well as the other panel, and say I look forward to working 
with you. We are going to do this again next year, so bone up 
and send it out, and let's get it online. My hope eventually--
you all know that the Federal Financial Accountability Act 
passed. We are going to know every penny you spend everywhere, 
and it is going to be online starting in 2008 so that the 
American taxpayers are going to see how much you spend on 
conferences and with who and where, and it is all going to be 
out there. And when the blogosphere gets a hold of it, the 
justifications are going to get tough. And so the 
justifications had better be right before it gets out there. 
And that is what you all--you want good accountability. You 
want to walk home at night and say, ``We did a great job for 
the American people.'' And I believe you do, and I believe that 
is your intent. We have just got to get better at managing this 
financial crisis that is coming at us. And it is big. And if 
you think you do not have enough money to manage now, you wait 
until 2012 because that is when it is going to hit and 
everybody is going to get squeezed big time.
    Thank you all for your service and for being here and 
preparing for our Subcommittee hearing. Thank you. The hearing 
is adjourned.
    [Whereupon, at 4:03 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





                                 <all>

</pre></body></html>
